<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 115-79]
[From the U.S. Government Publishing Office]








                                                         S. Hrg. 115-79

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 1-2, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
         
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-822 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JEFF SESSIONS, Alabama               KIRSTEN GILLIBRAND, New York
JERRY MORAN, Kansas                  CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
DAN SULLIVAN, Alaska                 KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 1-2, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................    14
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    15
Wicker, Hon. Roger, U.S. Senator from the State of Mississippi...    17
Ernst, Hon. Joni, U.S. Senator from the State of Iowa............    17
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......    18
Moran, Hon. Jerry, U.S. Senator from the State of Kansas.........    19
Sullivan, Hon. Dan, U.S. Senator from the State of Alaska........    21
Rounds, Hon. Mike, U.S. Senator from the State of South Dakota...    22

 
                            BUSINESS MEETING

                              ----------                              


                 WEDNESDAY, FEBRUARY 1, 2017-THURSDAY, 
                            FEBRUARY 2, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:47 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Inhofe, Capito, Boozman, 
Wicker, Fischer, Moran, Rounds, Ernst, and Sullivan.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    I have been informed that no Democrats will be in 
attendance this morning, in an effort to intentionally delay 
and obstruct the nomination of Attorney General Scott Pruitt to 
be the Administrator of the Environmental Protection Agency.
    It is a disappointing turn of events. But let's review some 
history.
    On January 21st, 1993, EPA Administrator nominee Carol 
Browner, under Democrat President Bill Clinton, was confirmed 
by the Senate. This is 1 day after he took office.
    On January 30th, 2001, EPA Administrator nominee Christy 
Todd Whitman, under Republican President George W. Bush, was 
confirmed by the full Senate.
    On January 22nd, 2009, EPA Administrator nominee Lisa 
Jackson, under Democrat President Barack Obama, was confirmed 
by the full Senate, 2 days after he took office.
    Today is February 1st, and the minority has now obstructed 
even having a vote in Committee on President Donald Trump's 
nominee, Oklahoma Attorney General Scott Pruitt. I hope this is 
not the new normal.
    We cannot afford for the EPA to go without an Administrator 
for the foreseeable future. This will impact future EPA 
Administrator nominees. These precedents for this delay will 
likely have long-term impacts after today's nominee has left 
office.
    This boycott not only affects the EPA, but it also prevents 
this Committee from organizing. No one can complain about the 
Trump administration and its policies, if they sabotage the 
very formation of the Committee that is supposed to conduct the 
oversight.
    There are a number of consequences to not having a fully 
functional EPA and a fully functional Senate Environment and 
Public Works Committee. There are key issues for the EPA and 
the Senate EPW Committee that we could and should be working 
on, including Waters of the United States policy, cold war 
legacy pollution cleanup, addressing brownfields, and ensuring 
implementation of the new TSCA legislation, to name a few. None 
of this is made better by this boycott. This amounts to nothing 
more than political theater at the expense of working on issues 
that we care about.
    The Ranking Member and the minority have complained about 
the nomination process. Let's set the record straight.
    Attorney General Pruitt has been through an extremely 
thorough and fair process. I would like to read some quotes 
from the members of the minority who have praised the 
unprecedented hearing we had on the nominee while the hearing 
was occurring.
    The Ranking Member stated, ``I appreciate the way you've 
conducted this hearing today. I appreciate all the members 
coming and coming back again and again.''
    My colleague from New Jersey stated, ``First of all, to 
you, sir, this is my first time going through nomination 
hearings. You have been very generous with the way you have 
been conducting these hearings. I think it is important,'' he 
said, ``that we note that, and I appreciate the number of 
rounds that you are doing.''
    My colleague from Rhode Island stated, ``I think that you 
have been fair.''
    These members are correct. The hearing was fair. It was 
historic in its length of time for member questions of the 
nominee.
    Let's be clear. Attorney General Pruitt has answered more 
questions than any past EPA Administrator nominee in recent 
memory. He answered a total of more than 1,200 questions. He 
answered over 1,000 more questions than the EPA Administrator 
nominees for the incoming Obama, Bush, and Clinton 
administrations.
    The letter that the Ranking Member sent me, dated January 
30th, highlighted what he believed were a lack of substantive 
answers from the nominee. To that I would quote my colleague 
from Rhode Island in 2013, when he stated during the McCarthy 
nomination business meeting that ``it is not the minority's 
right to get nominees to agree with them in advance.'' The 
minority may not like all of Attorney General Pruitt's answers, 
but he has given them answers.
    Ranking Member Carper made a prescient prediction during 
the first nomination business meeting for Gina McCarthy in 2013 
when he said, ``Someday there will be a Republican president.'' 
He said, ``Someday the Republicans are going to be in the 
majority in the Senate.'' He said, ``And that Republican 
president is going to have his or her cabinet in place.'' He 
said, ``I think you can nominate a Governor. A president 
nominates good people, honest people, hard working people. They 
ought to get at least a vote.'' He continued by saying, ``They 
ought to get a vote, and I think they ought to get our 
support.''
    Well, Mr. Pruitt ought to get at least a vote. He ought to 
get a vote. He ought to get our support.
    With that, I would recognize other members of the Committee 
who would like to speak.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. In case you were 
wondering why our audience looks a little more distinguished 
than normal, we are graced by the Oklahoma Wheat Growers 
Association, all of whom know the nominee personally.
    Thank you for the chance to get on the record, as we all 
want to do, concerning this nominee. He is a personal friend of 
those of us in Oklahoma, and he has gone beyond being 
responsive to this Committee. And I think it is important to 
get into the record, because we are making the record here, 
what he has actually been through.
    He went through four rounds of questions. That is more 
rounds than any other nominee in the recorded history of this 
Committee. In addition, he has answered 206 of our questions 
during that time. However, that was just the beginning of it 
because, once the hearing was over, our friends on the other 
side of the dais submitted 1,078 questions for the record.
    Now, the Chairman has talked about some of the previous 
nominees. In this case, during the Browner nomination, she had 
a total of 137 questions for the record. He had 1,078. During 
Christy Todd Whitman, she had 178 questions for the record. And 
when Lisa Jackson was here, she had only 133.
    So he had 1,078 questions for the record, including the 
extra questions from Senator Carper asked Pruitt, in his 
December 28th letter, as Pruitt promised he would. This means 
that he answered 1,000 more questions than any other 
Administrator nominee in the past three presidential 
administrations.
    Last week EPW--that is Environment and Public Works--
Democrats held a shadow hearing inviting partisan 
environmentalists to talk to each other, including a former 
employee of the Oklahoma Attorney General's Office under 
Pruitt's predecessor, who was sued and settled out of court for 
extreme workplace harassment. Great witness. Yet, even with all 
the unnecessary questions at the Democrat shadow hearing, 
Pruitt continued to talk with Ranking Member Carper by phone on 
Monday for 30 minutes, answering even more questions. I know 
about this phone call, and no questions were asked, none.
    Ranking Member Carper asked the same recusal questions 
posed at the January 18th nomination hearing, even though he 
has a letter from the EPA Career Ethics employee stating, 
``Pruitt has satisfied all ethics requirements and has entered 
into the same recusal agreement as former Administrator Lisa 
Jackson.''
    The other side just happens not to like the answer.
    Now, I am going to ask unanimous consent that we have a 
letter entered into the record after my remarks.
    Ranking Member Carper complained that Pruitt's description 
of the Illinois River agreement was wrong. Pruitt has 
negotiated the first enforceable limit on phosphorous in the 
Illinois River. That is simply a fact.
    He complained about Pruitt's answers on whether EPA can 
control mercury from power plants, alleging Pruitt opposes it 
simply because he was on the winning side of the Michigan v. 
EPA legislation, where the Supreme Court found EPA didn't 
bother to consider the costs of EPA's own rules, contrary to 
law.
    Finally, he complained about the answers to only 9 
questions out of 1,078 questions where Pruitt had to refer to 
the process under Oklahoma's Open Records Act to get a 
comprehensive response to the questions. Here are some examples 
of the Democrat member's questions, and you can decide whether 
or not referral to the Open Records Act was appropriate.
    Senator Cardin, in his 29th question, Senator Cardin, who 
is not here today but a member of this Committee, he said, 
``Please provide all communications you have had with 
representatives of agricultural and other companies regarding 
water quality litigation between Arkansas and Oklahoma.''
    Senator Carper's 119th question: ``For each listed matter 
in the State of Oklahoma has been a litigant or petitioner 
against the EPA, please provide any and all documents, 
including any and all written electronic correspondence, audio 
tapes, electronic records, video tapes, photographs, telephone 
messages, voicemails, e-mails, facsimiles, daily agendas, and 
calendars information about meetings and/or discussions, 
whether in person or over the phone, agendas, minutes, and a 
list of participants for those meetings and/or discussions, and 
transcripts and notes of any such meetings or discussions from 
the date on which your office first began to prepare the 
litigation at hand to the date of the letter between you or 
other employees in your office and each representative of each 
non-governmental entity with whom you or your office 
communicated about the litigation.'' That is all in one 
question. They are all part of the 1,078 questions.
    Senator Markey's 61st question: ``For each year since 
1995,'' that is 22 years of records, ``please provide 
information regarding the State of Oklahoma's environmental 
enforcement efforts, specifically descriptions of each 
environmental enforcement action, including investigations and 
enforcement proceedings initiated by the AGs,'' that is 
Attorney General's office, ``including the date of the action 
it was initiated, the name of the subject of the action and the 
nature of the action and environmental violation that led 
thereto, the annual budget and the number of employees, and''--
this is still Senator Markey's 61st question--``describe each 
environmental enforcement action, including investigations and 
enforcement procedures that was closed, including a description 
of the resolution of the matter, whether a fine or penalty was 
levied and, if so, the amount of such fine or penalty, whether 
non-monetary remedies were required, and if so, what, and 
whether criminal prosecution was initiated in the matter, and 
if so, what the resolution to the prosecution was.'' That is 
the end of that question.
    Senator Whitehouse's 84th and 85th questions: ``Please list 
all matters you and your office have had with the U.S. 
Department of Interior or the EPA since you became Attorney 
General of Oklahoma. For the purpose of this and the following 
question's matters refer to lawsuits, including lawsuits in 
which your office filed a friend of the court brief, 
enforcement actions, investigations, rulemakings, and any other 
matter which included adjudication between parties.''
    Let me repeat that Scott Pruitt has answered 1,000 more 
questions than any other nominee in the last three presidential 
administrations, and Scott Pruitt went through four rounds of 
questions. That is more rounds of questions than anyone has had 
to be subjected to in the history of this Committee. So it is 
time, I think, that we move on and get him voted out, and he is 
going to make a great Administrator of the EPA and a refreshing 
change.
    Thank you, Mr. Chairman.
    Senator Barrasso. Senator Inhofe, was there something you 
wanted to introduce to the record?
    Senator Inhofe. Oh, yes. I mentioned that earlier at this 
point in the record, and that is the letter I referred to.
    Senator Barrasso. Without objection.
    Senator Inhofe. Here it is.
    Senator Barrasso. Thank you.
    [The referenced information follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    Senator Barrasso. Senator Capito.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman. I am here today to 
strongly support Scott Pruitt's nomination to be the EPA 
Administrator. We need a functioning Environmental Protection 
Agency, and Americans deserve the change at the EPA that they 
voted for this fall.
    The American people are being denied this because of the 
Democrats' decision to boycott today's Committee business 
meeting. As has been mentioned, Scott Pruitt has been through a 
very thorough--and thank you, Mr. Chairman, for that--
incredibly thorough process. The gentleman from Oklahoma, I got 
exhausted just listening to the questions, but the Attorney 
General has answered over 1,200 questions by the time you add 
the written questions and the questions that were offered 
during the Committee hearing. No recent nominee for the EPA 
Administration has ever answered more questions, as we have 
heard.
    And I understand that my Democrat colleagues may not agree 
with Attorney General Pruitt's answers or with his philosophy, 
but disagreement with a nominee's position cannot justify a 
decision to boycott a scheduled Committee vote. Democrats 
should, instead, give the nominee the same consideration that 
has been given to the other nominees from both parties.
    As we heard, Carol Browner had a hearing January 11th and 
was confirmed on the 21st of January. Christy Todd Whitman, in 
2001, had her hearing on the 17th of January, was confirmed on 
the 30th. And in 2009 Lisa Jackson had a hearing on January 
14th and was confirmed on January 22nd, 2 days after the 
President's swearing in.
    Scott Pruitt's hearing was 2 weeks ago. He has been very 
visible and very open to questions. So today here we are, 
February 1st, later than the date of confirmation for his 
recent predecessors, and his nomination is continuing to avoid 
action in this Committee.
    And the Democrats are just wasting time with stunts like 
today's boycott. I found a quote that I had heard, and I kept 
looking it up, trying to figure out who to attribute it to, but 
80 percent of life is showing up. They are living on 20 percent 
of life right now. They are not even showing up. If a student 
doesn't show up, they flunk the class. If a worker doesn't show 
up, they get fired from their jobs.
    So our constituents elected us to do our job, and that 
includes coming to Committee hearings and voicing our opinions. 
They have had more than ample opportunity to hear from Attorney 
General Pruitt. Now is the time for this Committee to vote. 
Senators can vote yes or they can vote no; they can express 
their opinion. But failing to show up does not serve our 
constituents.
    Now, I agree with Senator Sanders, who is a member of this 
Committee, and we probably don't agree on a whole lot of other 
things, but he said, in 2013, ``When people have honest 
difference of opinion, we debate it.'' That is what Congress is 
made to do. But when the goal is simply obstructionism, I would 
draw this conclusion: We are not responding to the needs of the 
American people if there is not an EPA Administrator.
    So if the Democrats were present for this vote, we could 
debate our honest differences. I would point out, as I do every 
time, that there are tens of thousands of coal mining jobs in 
my State that have been lost in large part to EPA regulations. 
We could discuss the hardships of the misguided rules that have 
caused for farmers or natural gas workers or manufacturers. We 
could also talk about the great work that the EPA does to bring 
about clean air and clean water. And we could decide then if 
Scott Pruitt should be the next Administrator.
    I am very disappointed we are not going to have a two-sided 
debate here. He has a distinguished record of enforcing our 
environmental laws as they are written and working to protect 
clean air and clean water without unduly costing jobs and 
economic growth.
    I again commend the Chairman for the thorough confirmation 
process that he has conducted, and I look forward to voting in 
favor of Attorney General Scott Pruitt to be our next EPA 
Administrator.
    Thank you.
    Senator Barrasso. Thank you, Senator Capito. Thank you very 
much.
    Senator Boozman.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman. It truly is 
disappointing that members of our Committee are unable to come 
together to vote on the nomination of Attorney General Scott 
Pruitt for the position of Administrator of the EPA.
    I understand that my friends on the other side of the aisle 
are not happy with the Trump administration and are doing 
everything possible to delay voting on many of his cabinet 
nominees. However, as then-Chairwoman Boxer, in 2007, stated, 
``Elections have consequences.''
    The truth is that no one has been fairer or more patient 
than Chairman Barrasso. I urge my Democrat colleagues of the 
Committee to quit stalling a vote on the nomination. Attorney 
General Pruitt has been through a grueling nomination process 
and has done everything that has been asked of him. This 
includes answering more questions, as we have heard, than 
incoming nominees for the same position in the Obama, Bush, and 
Clinton administrations.
    Many of my Democratic friends will say he has not 
sufficiently answered many of their questions. I would like to 
point out there is a stark difference between not having a 
question answered and receiving an answer that you do not like 
or can't agree with. I would also add many of the 1,078 
questions for the record, which he answered in a timely 
fashion, were essentially the same questions he was asked at 
his nearly 6-hour-long hearing 2 weeks ago. It is unreasonable 
for my colleagues on the other side of the aisle to expect a 
different answer to the same question.
    Here are the answers that matter:
    Attorney General Pruitt has agreed to be transparent in 
EPA's rulemaking process, something that the Obama 
administration refused to do.
    He has agreed to bring stakeholders and the private sector 
to the table when developing rules, assuring that everyone's 
voice will be heard.
    He has promised to be forthright with Congress and get us 
answers in a timely fashion whenever we have questions or 
concerns, something former Administrator McCarthy was unable to 
do while running the EPA.
    And last, he has promised to follow the rule of law, 
ensuring that the EPA will go back to its core mission, 
protecting the environment by carrying out the laws developed 
by Congress. This will ensure that the EPA will not become a 
political arm of the Trump administration.
    It is time for us to put aside partisan squabbles and vote 
on this very qualified and respected candidate to lead the EPA. 
Now is the time to roll up our sleeves and get to work. 
Attorney General Pruitt's responses to the questions put before 
him during the confirmation hearing earned the opportunity to 
be considered by the full Senate, and that begins with this 
Committee voting on his nomination.
    I know some of my colleagues aren't happy with who is in 
the White House, but President Trump is not only President for 
Republicans; he is the President of all American citizens, and 
deserves to have the people in place to help him do the job he 
was elected to do.
    In 2009 the full Senate approved seven of President Obama's 
cabinet nominees his first day in office. It is almost 2 weeks, 
and this chamber hasn't voted on seven of President Trump's 
nominees. Republicans have the votes necessary to confirm many 
of the Trump administration's nominees, and that worries the 
Democrats, who have fundamental differences with the new 
Administration.
    I can honestly say I understand why Democrats are upset. I 
was upset when President Obama was forcing rules and 
regulations down the throat of Congress. But I say to my 
Democrat friends, being in the minority in the Senate, House, 
and losing the White House does not mean your job is done. You 
have an incredible opportunity as an EPW member to keep the new 
Administration in check, to ensure Attorney General Pruitt 
keeps his word, is transparent and available to stakeholders 
and Congress. We need to work together rather than obstructing 
the will of the American people.
    Though it is not happening today, I am pleased to support 
Attorney General Pruitt's nomination in this Committee and 
allow our colleagues a vote on the Senate floor. Attorney 
General Pruitt is a strong candidate, and I look forward to 
working with him as the EPA Administrator.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Boozman.
    Senator Wicker.

            OPENING STATEMENT OF HON. ROGER WICKER, 
           U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman.
    I, too, support Scott Pruitt, and let me just say I think 
objective observers who watched his testimony would have to 
agree that it was an impressive display of knowledge and 
patience. Attorney General Pruitt demonstrated that he is 
intelligent, articulate, thoughtful, patient, and 
knowledgeable. And I think because of that he will eventually 
be confirmed.
    You know, we are going to get through this, and the people 
on the other side of the dais are friends of mine. I am 
disappointed in them today. And frankly, I was disappointed in 
their conduct during the hearing, taking a complicated issue 
and asking the witness to answer yes or no, yes or no, when we 
all know that those issues didn't call for a yes or no answer; 
putting up a poster of campaign contributors to the Republican 
Attorneys General Association and somehow suggesting that that 
impeached the ability of Attorney General Pruitt to be 
Administrator of the Environmental Protection Agency.
    It was silly. It was beneath them. And again, we will get 
past this. But it was a disappointment to me, as friends of my 
colleagues on the other side.
    This action today by the Democratic members of this 
Committee is not about the qualifications of Attorney General 
Pruitt to be head of the EPA. It is simply about their 
disappointment with the results of the November election, pure 
and simple. And I would say to my colleagues, you are making 
yourselves look bad. And there were other statements that I was 
hearing on television last night, after the President made his 
Supreme Court nomination.
    We are ultimately going to be judged in the court of public 
opinion, and I think the American people are ready to put the 
election, the close election that we had in November, behind 
us, accept the results, and move forward to govern this nation. 
I am proud of this nominee. I am pleased that the President has 
put him forward. I am disappointed in my Democratic colleagues. 
But this nominee will be confirmed and we will move on.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Wicker.
    Senator Fischer, thank you so much for deferring your time 
to Senator Ernst, who has an unavoidable scheduling conflict.
    Senator Ernst.

             OPENING STATEMENT OF HON. JONI ERNST, 
              U.S. SENATOR FROM THE STATE OF IOWA

    Senator Ernst. Thank you, Mr. Chair.
    Thank you, Senator Fischer, very much.
    I would like to echo the same sentiments of many of my 
colleagues that are here today, and I would like to state for 
the record that this Committee and all Republicans in the 
Senate are committed to a fair and full confirmation process, 
and I know Chairman Barrasso has worked really hard to make 
sure that that is the case for Mr. Pruitt.
    Vetting nominees is an important role, and one that I take 
seriously, as do my colleagues. But there comes a point when 
vetting has been turned into obstruction, and that is what we 
are witnessing here today.
    Mr. Pruitt has answered more than 1,200 questions from this 
Committee. Twelve hundred questions. That is over 1,000 more 
answers than the incoming nominees for EPA Administrator from 
the last four administrations.
    Lisa Jackson, nominated by President Obama to be EPA 
Administrator at the start of his presidency, and viewed as a 
very controversial pick by many on this Committee, was asked 
202 questions; 202 questions compared to 1,200.
    So I would ask my colleagues on the other side what is the 
true purpose of their witch hunt. Because if the answer is to 
get more clarity on Mr. Pruitt's policy views or positions, 
Chairman Barrasso has given you an unprecedented amount of time 
and opportunity to get those answers, surpassing Committee 
standards set in 2003, 2005, 2009, and 2013. In fact, some of 
you even publicly acknowledge that you were pleased with how 
this Committee conducted the confirmation hearing.
    So I would remind my Democratic colleagues of their words 
in 2013, back when this Committee was considering Gina McCarthy 
and roles were reversed. Take, for example, Senator Cardin, who 
said, ``It has nothing to do with information not made 
available. It has everything to do with obstructionism.''
    Mr. Chairman, I am going to wrap up my comments here, but I 
would leave my colleagues on the other side with one final 
thought. Will they take the blame for an EPA that is not fully 
operational, heaven forbid, even if we have an environmental 
crisis?
    When people have honest differences of opinion, we debate 
it. But when the goal is simply obstructionism, I would draw 
this conclusion: ``We are not responding to the needs of the 
American people if there is not an EPA Administrator.'' And 
folks, those are not my words, those are the words that came 
from Senator Bernie Sanders from 2013.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Fischer.

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman. And I thank you 
for your thorough hearing process that we had with Attorney 
General Pruitt. As you have said, we had unlimited rounds. Any 
number of questions were asked during the public hearing. We 
had given this man 1,200 questions to respond to, and he has. 
So I thank you for really going above and beyond what I have 
seen happen not just in this Committee, but any other committee 
here in the U.S. Senate, no matter if it is chaired by 
Republican or Democrat. So thank you, Senator Barrasso.
    I would also like to thank Attorney General Pruitt. 
Throughout the hearing, if you were able to watch it, he 
treated this Committee and he treated this process with the 
utmost respect. He had a very respectful demeanor. He answered 
every question, I believe, thoroughly; and if he was unable to 
answer at the time, he provided the information later.
    I know Oklahoma can be proud of the gentleman that we had 
before us. Not only was he respectful, but he was also 
articulate, and he spoke with a calmness and a surety when he 
gave us his answers. It was obvious how intelligent he is. It 
was obvious that he is well qualified for this position because 
of his not only vast experience, but his vast knowledge on many 
of these issues.
    It is disappointing that our Democrat colleagues are not 
here today doing their job, and that job is to be able to 
debate with us, to be able to discuss so that we can continue 
this open, transparent, and accountable process that every 
Senate Committee hearing should be. That is what it should be, 
that we continue to do that. But instead we are seeing 
filibustering now at the Committee level.
    You know, I have had many, many disagreements with the 
previous Administrator, but we always showed a mutual respect 
for each other. And when Administrator McCarthy came before 
this Committee, we would have frank conversations, we would 
have open conversations, and we did it in full view of the 
public so that every citizen had the opportunity to see what 
our discussions were. I thank our former Administrator for the 
respect that she showed this Committee. I thank her for the 
civility that all members of this Committee showed to her. And 
it is more than disappointing that we are not able to see that 
today.
    I don't believe that Americans want to see this from their 
representatives. Americans want all of us to be able to have 
respectful conversations and do so in a manner that promotes 
the values of this country, and that is that we respect each 
other, we continue to have dialogue, and we continue to work 
for the people of this country. So I hope that our colleagues 
on the other side, our Democrat colleagues, will come to the 
Committee so that we can show that respect for each other and 
the respect for the process and the respect for the U.S. Senate 
and the Government that we have in this country. And I hope 
that they will come before us so that we can get to work, so 
that they can get to work, because that is what the American 
people expect us to do. They expect us to do our jobs.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Fischer.
    Senator Moran.

            OPENING STATEMENT OF HON. JERRY MORAN, 
             U.S. SENATOR FROM THE STATE OF KANSAS

    Senator Moran. Mr. Chairman, thank you very much. Thanks 
for calling this meeting. I am sorry for the circumstances we 
find ourselves in. I would just like to make three points.
    First of all, I would like to compliment you and the way 
that you have conducted this process. I don't see how anyone 
could reach a conclusion that it has been anything but fair, 
appropriate, the way that a Senate committee should be 
conducted.
    Second, I would like to just comment briefly on the quality 
of the nominee. As a Kansan from a neighboring State, we hold 
people from the Midwest in high regard, and I found the 
Attorney General to fit the qualifications of an individual 
that I would find great comfort in. And his testimony here 
showed significant knowledge, information, experience, with 
also a practical side of how environmental regulations have 
huge consequences upon the opportunities that Americans have. 
How do we keep the American dream alive at the same time of 
keeping the environment clean and desirable?
    Many of us choose to live in the Midwest. I choose to live 
in Kansas for a number of reasons, but one is because the 
sunsets, the sky, the water. It is a beautiful place, and we 
all want it to be that way. We also know that we also need 
economic activity. We want our kids to have a chance to be 
raised on a farm, but also to become farmers. We want the 
opportunities to be available to all, and so we have to find 
the right balance, and I found the Attorney General's testimony 
very satisfactory in that regard.
    Finally, Mr. Chairman, perhaps most importantly to me 
today, is one more example of the dysfunction of the U.S. 
Senate by the actions taken by our colleagues on this 
Committee. I have said this numerous times, mostly to Kansans. 
I don't think I have ever said it in public here, but I was 
elected to the U.S. Senate now 6 years ago, in 2010. There is 
absolutely nothing in my background that would suggest I would 
grow up to be a member of the U.S. Senate; nothing in my 
family, no particular qualifications other than I am an 
American citizen.
    And as some of you have heard me say, when I arrived at the 
U.S. Senate, I was welcomed to the Senate by the then-Majority 
Leader Harry Reid. And Senator Reid was very kind to me, 
welcomed me to the Senate. We were standing on the Senate 
floor, and he asked me how I liked being here, and I indicated 
to him how honored I was by Kansans giving me the chance to try 
to make a difference on their behalf.
    But I said, you know, Leader, sir, it doesn't seem to me 
like we are going to do anything. And Senator Reid's reply to 
me was, oh, Jerry, you just need to understand we are not going 
to do anything. And that was very disappointing, discouraging 
to me, again, from a sense--I don't mean this in any kind of 
personal accomplishment way, but to become a Member of the U.S. 
Senate by the grace of God, kindness of Kansans, only to 
discover that the plan was to do nothing.
    So for much of my time in the U.S. Senate I have been 
working on behalf of every Senator, Republican, Democrat, all 
100 of us, to have the sense that we have jobs to do and work 
to be done, and we all ought to have a chance to advocate on 
behalf of our constituents.
    I come from Kansas, and in many ways we may have different 
points of view than people who come from other places in the 
country. This country is a diverse place. The U.S. Senate is a 
place in which that diversity is overcome. It is a place in 
which the diversity of this country should be overcome. And it 
takes goodwill and common sense; a desire to accommodate other 
people's points of view; an understanding that someone may 
disagree with you, but it doesn't make them evil; an 
understanding that someone may disagree with you, but maybe you 
can learn something from that disagreement and modify your own 
position. But none of that can happen at the U.S. Senate, and 
today the example is this Committee doesn't function. So it is 
discouraging to see, once again, that we are in the mode of we 
are not going to do anything.
    I don't expect to win every battle, and I recognize that 
often my points of view, coming from where I come and the 
philosophy that I hold, is a minority point of view. But I 
certainly have the responsibility to advocate and hope that 
someday our point of view may be something that becomes a 
majority point of view. I don't expect success today, but I 
expect the opportunity to pursue success in the future.
    And if we can't even meet together, if we can't even have 
the debate, the discussion, ultimately votes taken, majority 
rules, then we never have the chance to convince each other 
that we are wrong or we are right, and we are missing something 
important to the legislative process. So it is just one more 
disappointment in a circumstance that we ought not face.
    Finally, I would say I have tried to set the expectations 
that so maybe after the next election, if we can just get 
through an election, maybe we can set aside the differences and 
then come together and govern. Maybe there is something that 
has to happen. Early in my time in politics people would say, 
well, we can't do it right now, there is an election coming 
around the corner. Usually that was a month or a few weeks out. 
Then over time it has become, well, there is an election this 
year; and now there is an election this cycle. We can't 
continue to use an election as the excuse for inability to do 
anything.
    And today we don't even have that as an excuse; the 
election is behind us. We have a new President to serve in 
office for the next 4 years, and we ought not stand for the 
inability for us to govern, to reach conclusions, make 
decisions based on the fact that this is politics. We have 
become, too often, governing by tantrum now, governing by sound 
bite, governing by press conference, and the governing needs to 
take place among Members of the U.S. Senate, and it can start 
right here with the Committee on EPW.
    Mr. Chairman, again I thank you for the way you have 
conducted the hearing. I express my gratitude for a nominee who 
is willing to put himself and his family through the process of 
trying to serve his country. And I would ask all my colleagues, 
Republicans and Democrats, to find ways for us to solve 
problems by working together.
    I thank the Chairman.
    Senator Barrasso. Thank you, Senator Moran.
    Senator Rounds, thank you for your patience in deferring to 
Senator Sullivan.
    Senator Sullivan.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
             U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    Thank you, Senator Rounds.
    I, too, want to express my appreciation for how you have 
run this hearing. I think it was probably the most thorough 
hearing for an EPA Administrator probably in U.S. history. It 
was done in a very respectful manner, and all the members, as 
you indicated, Democrats and Republicans, very much appreciated 
it.
    You know, sometimes in these hearings you can't make the 
hearing because you are out at another hearing, but just for 
the record, right before this hearing I was out in the hallway, 
and the vast majority of our colleagues were literally 
meandering in the hallway right in front of the hearing room. 
So I invited them to come in, and unfortunately, they politely 
declined. So it is not like they are busy. Literally kind of 
circling the hallway. A little embarrassing there.
    You know, Mr. Chairman, we have differences of opinion in 
this Committee. That is often a good thing. We debate them; we 
share ideas. We give the voters the very best we have, and then 
we let them make their own decisions, and on election day that 
is what happened. The people chose President Trump over 
Secretary of State Hillary Clinton. And when they did that, 
they did so knowing that he would appoint a new cabinet. And 
they voted for action, and they voted for a smooth transition, 
and they expected us in these committees to give us an open and 
fair and thorough nominating process, confirmation process for 
the members of the cabinet, and that is what you did, and that 
is what we all did.
    And I think as the hearing revealed, Attorney General 
Pruitt is highly qualified for the EPA Administrator job. The 
EPA needs a serious course correction after the lawless 
leadership of Gina McCarthy, and Mr. Pruitt has shown that he 
has the commitment, the intellect, the experience to lead this 
change, and I think that is going to be critical for America. 
It is certainly going to be critical for my State of Alaska.
    So, Mr. Chairman, what is going on here? As I noted at the 
outset, my colleagues are out literally meandering in the 
hallway. This is simply a senatorial temper tantrum. A 
senatorial temper tantrum. And as all the parents here know, 
temper tantrums waste a lot of energy, but they don't 
accomplish anything. The American people deserve better, and I 
ask my colleagues on the other side of the aisle to come back 
to the Committee. Let's get to work.
    And here is the important thing that I think it is really 
important to recognize. Sometimes this Committee is viewed as a 
very partisan Committee. But this is a Committee that actually 
gets things done. And with the new head of the EPA we can do 
that in a bipartisan way. I am glad to see the former Chairman 
is here. My first 2 years in the Senate, this Committee was the 
most active Committee--TSCA, the highway bill, the WRDA bill, 
with Republicans and a Democrat in the White House, and we 
still got those things passed. So I would ask my colleagues to 
cease the temper tantrum. Let's get back to work, because it is 
important for the American people and that is what they want.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Sullivan.
    Senator Rounds.

            OPENING STATEMENT OF HON. MIKE ROUNDS, 
          U.S. SENATOR FROM THE STATE OF SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman. I think a lot of 
things have already been said today that needed to be said by 
members of our party, the party which is actually showing up 
for this particular Committee hearing.
    I am going to be brief, but it comes to mind that a 
gentleman that led South Dakota, former Governor by the name of 
George Mickelson, used to say that things get done by people 
that show up. He didn't say things get done by people that 
don't show up or that are protesting.
    The reality is that our friends on the other side of the 
aisle--and we know them personally, they are good people--they 
have decided that this is a protest, and it is a protest 
because they are not going to receive a nominee that they 
wanted. When they lost the election, it was hard on them, and 
they are still feeling that pain, and because of that their 
protest here by not showing up slows down the work of the 
Senate. It won't stop the work of the Senate, but it does show 
one of the reasons why it is so hard to get lots of different 
things done that I think the American people really wanted to 
see get done.
    You know, Scott Pruitt is the Attorney General. He comes in 
with the qualifications clearly in a position to make changes 
within the Environmental Protection Agency that many of us 
wanted to see. He believes in sound science. He is one of the 
guys that understands that regulations really do impact the day 
to day lives of American citizens. He understands that State 
and local units of government should have a say in how those 
regulations are established.
    EPA, when it works correctly, works in a Federalist role, 
one in which they cooperate and coordinate with State and local 
units of government. I thought he would add value at the EPA, 
and I think in the future he will. Simply delaying the change 
in leadership at the Environmental Protection Agency does not 
help our country. I think for our friends on the other side of 
the aisle, when we were growing up, our mom and our dad used to 
tell us that it isn't one of those things that is appropriate 
to simply say, if I am mad at the game that is chosen, I will 
take my ball and go home, and yet that is kind of what we are 
seeing here. And it will change, but in the meantime, we have 
to work our way through this.
    I think we have to be the adults in the room. We have to 
act like adults in the room. I think we will follow the rules, 
but we will eventually approve Mr. Pruitt as the next 
Administrator for the Environmental Protection Agency. But in 
the meantime it has slowed down the process within the U.S. 
Senate, a lot of things in which most Republicans and Democrats 
can agree on. Time on the floor of the Senate is extremely 
valuable, and it is one that I think Republicans and Democrats 
both agree that that time, when it is as valuable as what it 
is, can't be wasted.
    Unfortunately, what we are seeing from our colleagues is 
every opportunity that they can to slow down the work in the 
U.S. Senate continues. They have slowed down, they have 
declined in many cases to give time back even when they are 
done with the debate, and this is just one more glaring example 
of a dysfunction within this body that could really work better 
than what it does today.
    So I think rather than simply beating them up over this 
time and time again, we should simply remind them that I think 
we all know that there is a better way to get this stuff done, 
and simply not showing up for a Committee hearing is probably 
one of the more childish things and one of the more childish 
behaviors when it comes to protesting.
    I think the value here could have been, if they were on the 
other side of the aisle and simply pointed out their point of 
view, and if they disagreed or if they had reasons why Mr. 
Pruitt should not be identified as the next Administrator, to 
be able to come in and voice those and to lay out their 
arguments appropriately in opposition to our arguments in favor 
of him would have been a healthy discussion that would have 
been an example to young people across this country about the 
way that our Government should work, and that open and public 
debate and discourse, that is a healthy part of this process. 
But simply not showing up because you lost an election is 
probably not the most appropriate way to set an example for the 
next generation.
    So, with that, Mr. Chairman, I would acknowledge the way in 
which you have handled this series of Committee hearings, it 
has been fair. Mr. Pruitt has answered over 1,000 more 
questions than anybody else applying for this job has in the 
past. And it simply is clear that our friends on the other side 
of the aisle have chosen what I believe to be the wrong way to 
protest the loss of an election, and they have provided 
additional reasons to point out the dysfunction that sometimes 
occurs in what should be a very deliberative body in the U.S. 
Senate.
    With that, Mr. Chairman, thank you for what you have done 
to try to move this process forward.
    Senator Barrasso. Thank you very much, Senator Rounds.
    I thank all the members for being here.
    I want to just close with stating that not having a vote on 
this nominee today, not organizing this important Committee is 
a shame. I believe no one is served, no environmental goal is 
achieved by the Democrats acting in this obstructionist way.
    I want to quote one of my colleagues from Oregon, on the 
other side of the aisle, when he stated, in May 2013, ``What we 
have today is an embarrassing dereliction of public 
responsibility.'' He said, ``And the word embarrassing doesn't 
capture the grave harm that is coming from members of this body 
deciding to abuse the advice and consent obligation that this 
body has, this Senate has under our Constitution.''
    To the members of this Committee, I tell you I pledge to 
move the nomination of Attorney General Scott Pruitt to be 
Administrator of the Environmental Protection Agency as 
expeditiously as possible.
    This Committee is in recess subject to the call of the 
Chair. Thank you very much.
    [Whereupon, at 11:35 a.m. the Committee was recessed, 
subject to the call of the Chair.]
    [Resuming Thursday, February 2, 2017]
    The Committee met, pursuant to notice, at 10:45 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Inhofe, Capito, Boozman, 
Wicker, Fischer, Sessions, Moran, Rounds, Ernst, and Sullivan.
    Senator Barrasso. The Committee is called to order.
    We are reconvening our business meeting to consider the 
nomination of Attorney General Scott Pruitt to be EPA 
Administrator, the Committee funding resolution, and the 
Committee rules.
    Yesterday, the minority members of the Committee chose to 
boycott this business meeting. It is disappointing that they 
chose that course of action, but we will not allow it to 
obstruct.
    As I stated yesterday, this Committee has conducted an 
extremely thorough and fair process of reviewing Attorney 
General Pruitt's nomination. That includes a hearing of 
unprecedented length, number of questions, and timely responses 
from the nominee. It is unprecedented for the minority to delay 
an EPA Administrator for an incoming President to this extent.
    We had an election last November, the people spoke, and now 
it is time to set up a functioning Government. That includes a 
functioning EPA. To do that, this Committee has to do its work.
    So at this time I ask for a motion to suspend Rules 2(a), 
4, and 8 of the Rules of the Environment and Public Works 
Committee for the duration of this business meeting.
    Senator Inhofe. Mr. Chairman, I so move.
    Senator Barrasso. Is there a second?
    Senator Capito. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. All opposed, say nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it, and Rules 2(a), 4, and 8 of the Rules of the Committee 
of the Environment and Public Works are suspended for the 
duration of this business meeting.
    At this time, I would like to call up Presidential 
Nomination 44, Scott Pruitt, of Oklahoma, to be Administrator 
of the Environmental Protection Agency.
    Could I have a motion to approve and report the nomination 
favorably to the Senate?
    Senator Inhofe. Mr. Chairman, I so move.
    Senator Barrasso. Is there a second?
    Senator Wicker. Second.
    Senator Barrasso. On this matter I ask for a recorded vote. 
The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Mr. Boozman.
    Senator Boozman. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Mr. Carper.
    Mrs. Duckworth.
    Mrs. Ernst.
    Senator Ernst. Aye.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Aye.
    The Clerk. Mrs. Gillibrand.
    Ms. Harris.
    Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Mr. Merkley.
    Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Mr. Sessions.
    Senator Sessions. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Whitehouse.
    Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 11.
    Senator Barrasso. The nomination of Attorney General Scott 
Pruitt to be EPA Administrator is approved and reported.
    Next, I would like to call up the Committee funding 
resolution, which funds the Committee from March 1st of this 
year through February 28th of 2019 in three financial periods 
reflecting the funding levels the Rules Committee assigned to 
the Committee.
    Do any Senators seek recognition to speak about this 
resolution?
    If not, could I have a motion to approve and report the 
resolution to the Senate?
    Senator Inhofe. I so move.
    Senator Barrasso. Is there a second?
    Senator Rounds. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it, and the Committee funding resolution is approved and 
reported.
    [The referenced information follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
  
    
    Senator Barrasso. Next I would like to consider the 
Committee rules. Do any Senators seek recognition to speak 
about the Committee Rules?
    If not, could I have a motion to adopt the Committee rules 
for the 115th Congress?
    Senator Inhofe. I so move.
    Senator Barrasso. Is there a second?
    Senator Wicker. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. The Committee rules are adopted.
    [The referenced information follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    Senator Barrasso. Let me make clear to everyone what just 
happened. Yesterday, the minority members of the Committee 
chose to boycott our business meeting because they do not 
support the nomination of Scott Pruitt. As we pointed out 
yesterday, elections have consequences, and a new President is 
entitled to put in place people who will advance his agenda, 
the agenda that the people voted for when they elected him 
President.
    Today we suspended several of the rules of the EPW 
Committee for this business meeting only. We took this 
extraordinary step because the minority members of the 
Committee took the extraordinary step of boycotting the 
business meeting to approve an EPA Administrator for an 
incoming Administration.
    We have been in consultation with the Senate 
Parliamentarian, and she has informed us that the procedure 
that we have followed today is proper under the Senate rules, 
and no point of order will lie against the Pruitt nomination. 
The minority has put us in this uncharted waters. Never before 
in the history of the EPA has a new President's incoming 
Administration's nominee been boycotted. The last three 
nominees for new incoming Administrations were all confirmed by 
the end of January.
    Yesterday, February 1st, the minority blocked even having a 
vote in Committee of the nominee. Attorney General Pruitt sat 
through the longest EPA nomination hearing in history and 
answered the most questions. The complaints about Attorney 
General Pruitt's answers to questions is simply a smoke screen.
    Let me be clear. The leadership of the minority chose to do 
a blanket boycott of many of the President's nominees in 
committees across the Senate, regardless of their merit. The 
minority wants political theater. The nation needs a new EPA 
Administrator. At the end of this meeting, the Committee rules 
will be back in full effect. I expect to conduct all further 
business of this Committee under those rules and hope that from 
this point forward we will be able to work together in a 
bipartisan manner.
    Before we adjourn, it is important to note that in 2009 
then-Chairman Boxer reported legislation from this Committee 
without meeting the quorum requirements under the Committee 
rules. With regard to boycott comparisons with Gina McCarthy's 
nomination, the EPW Republicans were not stopping President 
Obama from setting up his Government. Gina McCarthy was a 
second term nominee. President Obama's political appointees, 
including Gina McCarthy, were already at EPA advancing 
President Obama's agenda.
    This concludes our business meeting. I ask for unanimous 
consent for staff to make any technical corrections to any of 
today's measures. Without objection.
    This business meeting is concluded. The Committee stands 
adjourned.
    [Whereupon, at 10:52 a.m. the meeting was adjourned.]

                                 [all]
</pre></body></html>
